No.

Zo-(t>

IN THE SUPREME COURT OF THE UNITED STATES

WILLIAM BURKE,

Supre

Tig***

i

Petitioner,

JUN 2 9 2020

vs.

•2E2cepF

PROGRESSIVE GULF INSURANCE,
Respondent.

On Petition for a Writ of Certiorari
U.S. Court of Appeals for the Fourth Circuit of the Supreme Court

PETITION FOR WRIT OF CERTIORARI

William Burke
3017 Northridge Road
Hardy, VA 24101
540-493-0303

RECEIVED
JUL - 8 2020

I

Questions Presented
This case involves a simple insurance claim to Progressive Gulf Insurance
made by William Burke when his boat sank in January 2018 . Progressive
manipulated the court system and the judiciary process throughout the proceedings
through a series of calculated actions meant to deny William Burke the right to a
fair trial as guaranteed under the Seventh Amendment. Progressive Insurance
sued Mr. Burke in Federal Court erroneously claiming Maritime and Admiralty
jurisdiction based on obsolete, outdated laws to put him at a disadvantage. They
then proceeded to file a motion for Summary Judgment to settle the case without a
trial which precluded Mr. Burke from having his proverbial day in court.

Question 1 : Is an insurance company allowed to manipulate outdated, obsolete
maritime laws in order to falsely claim that a vessel is located in navigable waters
with the primary goal of putting the insured at a legal and financial disadvantage?

Question 2 : Did the Summary Judgment deny Mr. Burke’s constitutional right to
a fair trial under Amendment 7?

l.

Related Cases

Progressive Gulf Insurance Company v. William Burke, No. 7:18-cv-00293, U.S
District Court For the Western District of Virginia Roanoke Division. Judgment
entered May 10, 2019.

Progressive Gulf Insurance Company v. William Burke, No. 19-1670, U.S. Court of
Appeals for the Fourth Circuit. Judgment entered January 30, 2020.

li.

Table of Contents
QUESTIONS PRESENTED

1

RELATED CASES

n

TABLE OF CONTENTS

in

APPENDIX

in

TABLE OF AUTHORITIES

IV

PETITION FOR WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL STATUTORY PROVISIONS

1,2

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE PETITION

8

CONCLUSION

10

APPENDIX............................................................................................................
Appendix A Opinion, United States Court of Appeals for the Fourth Circuit
(January 30, 2020)

11

Appendix B Final Order and Declaratory Judgment, United States District
Court for The Western District of Virginia, Roanoke Division
(May 10, 2019)

in.

Table of Authorities
Cases
Alford v. Appalachian Power Co. , 951 F.2d 30, Fourth Circuit

3

Beacon Theatres, Inc. v. Westover, 359 U.S. 500 (1959)

7

Fidelity & Deposit v. United States, 187 U.S. 315 (1902)

9

Lockheed Martin Corporation, 503 F.3d 351 (2007)

7

Motley v. Hale, U.S. District Court W.D. Virginia 567 F. Supp. 39 (1983)

4

IV.

Petition for Writ of Certiorari
William Burke respectfully petitions this court for a writ of certiorari to review the
judgment of the United States Court of Appeals Fourth District Court.

Opinions Below
The opinion for the United States Court of Appeals for the Fourth Circuit appears
in Appendix A, and the opinion is unpublished.
The opinion for the U.S District Court or the Western District of Virginia Roanoke
Division appears in Appendix B, and the opinion is unpublished.
Jurisdiction
The Fourth Circuit entered judgment on January 30, 2020. This Court has
jurisdiction under 28 U.S.C. § 1254(1).

Statutes and Constitutional Provisions Involved

United States Constitution Amendment VII which provides:
“In suits at common law, where the value in controversy shall exceed twenty
dollars, the right of trial by jury shall be preserved, and no fact tried by a jury, shall
be otherwise reexamined in any court of the United States, than according to the
rules of the common law.”

United States Constitution Article III, Section 2 which provides:
"The judicial power shall extend to all cases, in law and equity, arising under this

1

Constitution, the laws of the United States, and treaties made, or which shall be
made, under their authority

to all cases of admiralty and maritime

jurisdiction;

Judiciary Act of 1789 Chapter XX Section 9
That the district courts shall have, exclusively of the courts of the several States,
cognizance of all crimes and offences that shall be cognizable under the authority of
the United States, committed within their respective districts, or upon the high
seas

and shall also have exclusive original cognizance of all civil causes of

admiralty and maritime jurisdiction”

28 U.S.C. § 1333(1)
The district courts shall have original jurisdiction, exclusive of the courts of the
States, of:
(1) Any civil case of admiralty or maritime jurisdiction, saving to suitors in all cases
all other remedies to which they are otherwise entitled.

2

Statement of the Case
Progressive Gulf Insurance does not act in good faith and uses the court
system to avoid paying out claims to the insured who have legitimate claims. In
this case William Burke made an insurance claim after his boat sank in Smith
Mountain Lake Virginia on January 8, 2018. Mr. Burke acted in good faith as a
faithful customer of Progressive since 2016 and as a conscientious boat owner.
Progressive Gulf Insurance never acted in good faith and did everything in their
power not to honor the commitment they had made to Mr. Burke when they entered
into the business contract. In fact, it took five days to raise the boat above the water
even though the boat was still tied to the dock. After several more days, Progressive
sent two adjusters. The adjusters stopped checking for damage before theyvhad
examined the whole boat. When asked by Mr. Burke why they had not examined
the whole boat, the adjuster stated that they had already found enough damage to
equal the $150,000 the vessel had been insured for so they totaled the boat.
Progressive sued Mr. Burke in Federal Court claiming Admiralty and
Maritime jurisdiction erroneously claiming that the boat sank in navigable waters.
Smith Mountain Lake, where the incident occurred, is not navigable. In Alford v
Appalachian Power, 951 F.2d 30, Fourth Circuit (1991) the district court dismissed
the case on jurisdictional grounds, including the basis that “ Smith Mountain Lake
is a dammed, lockless lake located wholly within one state and as such cannot
possibly form a continuous highway of commerce with other states as required to
3

invoke admiralty jurisdiction.” In Motley v. Hale, U.S. District Court W.D. Virginia
567 F. Supp. 39 (1983), Judge Jackson Kiser granted the Defendant’s motion to
dismiss holding that Smith Mountain Lake was not currently navigable stating “I
am of the opinion that current navigability, not historic navigability, is the
appropriate test for determining admiralty jurisdiction.” Claiming Admiralty and
Maritime jurisdiction (United States Constitution Article III, Section 2; Judiciary
Act of 1789 Chapter XX Section 9; 28 U.S.C. § 1333(1)) puts Progressive Insurance
at an advantage over the insured, William Burke. William Burke made several
attempts to obtain a maritime lawyer without success. Suing Mr. Burke in
Maritime Court is a disingenuous ploy utilized by Progressive Gulf Insurance to
make proceeding with the lawsuit and counter-claims prohibitively expensive for
Mr. Burke.
Progressive sued Mr. Burke in United States District Court Western District
of Virginia, Roanoke Division after he rejected their initial offer. They offered only
$20,000, a fraction of the $150,000 the boat was insured for. Progressive has a
history of making low-ball offers especially when the insured does not have legal
counsel. Progressive petitioned the court for a Summary Judgment which
prohibited William Burke from being able to testify as to the boats condition and
the winterization procedures in question. In the Memorandum Opinion, the Judge
states, “that Burke’s and Travis’s own testimony regarding what is the ‘local
custom’ would be admissible in some form and that it creates a genuine issue of
4

material fact precluding summary judgment as to the winterization exclusion.”
The Memorandum Opinion also states that, “Because it is undisputed that
neither Burke nor Travis followed the manufacturer-recommended maintenance
guidelines regarding winterization of the A/C units, the vessel was not seaworthy as
that term is defined in the Policy.” This is a disputable fact. The vessel has two
identical Marvair SeaMach systems. The Marvair SeaMach system is a reverse
cycle air conditioner and heater system which allows for the Vessel to be utilized in
the summer to provide air conditioning and utilized in the winter to provide
heat. This boat was never stored as it was being used year round. Progressive had
knowledge of this. Progressive made numerous references (#13 and #24 of the
Complaint 6/22/18) about the winterization regarding “stored boats”. The vessel was
not being “stored”. It was being utilized year round. Since the Vessel was being used
throughout the year, including the winter, Mr. Burke winterized the boat following
local customs and manufacturer guidelines.
Mr. Burke’s and his son Travis’ knowledge regarding his custom built
houseboat, the systems which it contains and maintenance of such was valuable
evidence. Mr. Burke explained that his vessel, being one of a kind, made it difficult
to find anyone in the area who had any such knowledge of the systems the Vessel
contain and therefore it was difficult to find people in his area who were “experts”
on the the winterization process of these systems. Progressive’s Marine Surveyor,
as stated in the document, Brief in Support of Progressive Gulf Insurance
5

Company’s Motion for Summary Judgment, spoke with Reed Smith, a service
manager at Webster Marine Center, about the local customs for winterization. The
surveyor stated that Smith was the only mechanic willing to talk to him after
calling around to multiple marinas on Smith Mountain Lake. Progressive
misnamed their witness; however their witness had never worked on a boat as large
as Mr. Burke’s. His vessel is a one of a kind, custom built houseboat.
Mr. Burke and son, Travis’ testimony regarding the systems on the Vessel used for
cooling and heating the Vessel throughout the year was crucial evidence. There is
no doubt that Progressive knew this as well as they used all measures to ensure Mr.
Burke and his son, Travis would not be given the opportunity to testify or have a
fair trial. Mr. Burke as well as his son, Travis were listed to be expert witnesses in
the Trial which was set for June 4-6, 2019. On February 12, 2019 Progressive made
a Motion for Summary Judgment and submitted BriefTMemorandum in Support
Motion for Summary Judgment. Then on March 15, 2019 Progressive made a
Motion to Exclude experts William. Burke and Travis Burke with a 16 page
BriefTMemorandum in Support Motion to exclude experts William Burke and
Travis Burke. On April 15, 2019 an oral order granting Motion to exclude experts
William Burke and Travis Burke was entered. On May 10, 2019 the Memorandum
Opinion, Final Order and Declaratory Judgment granting Motion for Summary
Judgment and dismissing with prejudice Burke’s counter-claim.
6

By petitioning the court for a Summary Judgment and receiving a judgment
in their favor, Progressive is able to avoid paying out claims. The Summary
Judgment is a one-sided argument of the dispute in question. In Beacon Theatres,
Inc. v. Westover, 359 U.S. 500 (1959) Justice Black stated, “ Maintenance of the jury
as a fact-finding body is of such importance and occupies so firm a place in our
history and jurisprudence that any seeming curtailment of the right to jury trial
should be scrutinized with the utmost care.” In re Lockheed Martin Corporation,
503 F.3d 351 (2007) the Fourth Circuit determined that if either party elected to
pursue a maritime claim at common law, the Seventh Amendment must apply to
the entire case

Such an action would be “inconsistent with the Supreme Court’s

admonition that the Seventh Amendment right to a jury trial must be preserved
wherever possible”. Mr. Burke’s detailed testimony about the winterization steps
utilized were never entered into the court record. At the same time, Progressive
argued to the court that no information was given about winterization and other
'

pertinent information despite Mr. Burke’s several attempts to provide pertinent
information. For Progressive, it was a win-win situation. Unfortunately, the
insured, William Burke, received no pay out and was not allowed the opportunity to
testify before a jury trial.
At every step of this case, Progressive manipulated the facts. They failed to
do adequate forensic examination on the boat part in question - the strainer bowl
component of the Marvair SeaMach system. Instead, Mr. Ryan, Progressive’s
7

Marine Surveyor, looked at the strainer bowl for less than one minute before
handing it back to Mr. Burke. Mr. Ryan and Progressive never entertained the
possibility of alternative causes for the strainer bowl break despite the fact that an
identical strainer bowl eight feet away sustained no damage. The two strainer
bowls were positioned on the boat within a few feet under the exact weather
conditions. Mr. Ryan did examine the undamaged strainer bowl and noted that
there was water in the strainer bowl and that it was neither leaking nor broken.
Later, Mr. Burke took the strainer bowl to Mr. Mills of Webster Marine. Mr. Mills
has over 60 years of marine repair and maintenance experience. Mr. Mills provided
a statement that the strainer bowl would not have broken in that manner if freezing
was the cause and said that Progressive “was grasping at straws.” This was never
considered by Progressive. The court determined that the facts were not in dispute
however the haste with which the summary judgment was determined precluded
Mr. Burke’s attempts to provide factual testimony about the condition of the boat,
the maintenance of the boat, and the winterization procedures employed.
Protections must be given to insurers so that insurance companies like
Progressive Gulf Insurance don’t get away with these bad faith methods.

8

REASONS FOR GRANTING THE PETITION
The Court should grant the writ of certiorari to ensure that everyone has the
right to a fair trial even when confronted with a powerful plaintiff. Everyday,
insurance companies seek to manipulate the courts in order to avoid paying out fair
claims to the insured. In this case, Progressive Gulf Insurance perpetrated two
ploys in order to deny William Burke of a fair trial. William Burke was not granted
his constitutional right to a fair trial with a jury as protected by the Seventh
Amendment.
First, Progressive Gulf Insurance sued William Burke in maritime court
where the case DID not belong. Why would Progressive want the case to be tried in
maritime court? Maritime court presents barriers to the average defendant. First,
lawyers who are qualified to practice in maritime court are not common. William
Burke made several attempts to hire an attorney who specializes in maritime law.
His many attempts were unsuccessful. Second, defending oneself in maritime court
against a powerful plaintiff like Progress Gulf Insurance is prohibitively expensive.
Progressive claimed that the boat in question was located in navigable waters. The
erroneous argument was based on antiquated laws from 1789 that placed
jurisdiction of watercraft accidents in maritime court based on the definition of
navigable water. In this case, the aforementioned vessel was located in Smith
Moutntain Lake which was erroneously deemed to be a navigable water way.
Progressive used the antiquated definition of “navigable” to put the case in
9

maritime jurisdiction to place an unreasonable obstacle in William Burke’s quest for
justice. Unfortunately, William Burke’s plight is not unique. Insurance companies
have utilized this practice on more than one occasion.
In addition, Progressive Gulf Insurance petitioned the court for a summary
judgment. When the summary judgment was granted, the defendant’s
Constitutional rights were violated under the seventh amendment. In this case,
William Burke desired to “have his proverbial day in court” and to have the
opportunity to explain the events of the boat incident and to have a jury of his peers
determine judgment. Instead, the summary judgment precluded testimony and a
jury trial.
Judges use summary judgments routinely to clear the docket of cases that
they deem to be meritless and to have undisputed facts. In this case, the claim by
Mr. Burke had merit and the facts were disputed. While there is no question that
summary judgments have reduced the number of jury trials, there is a question
about whether summary judgment, as a matter of course, should be employed. The
use of summary judgment in a trial is unconstitutional because it denies citizens
the rights afforded under the Seventh Amendment. It’s often thought that the
Supreme Court settled the issue of summary judgment in Fidelity & Deposit Co. v.
United States. However, a review of the case reveals that the issue of summary
judgment was not resolved.
The question is governed by the Seventh Amendment which provides that "in
10

Suits at common law, . . . the right of trial by jury shall be preserved, and no fact
tried by jury, shall be otherwise re-examined in any Court of the United States,
than according to the rules of the common law." The Supreme Court has held that
"common law" in the Seventh Amendment refers to the English common law in
1791.

Conclusion
For the foregoing reasons, Mr. William Burke respectfully requests that this Court
issue a writ of certiorari to review the judgment of the U.S. Court of Appeals for the
Fourth Circuit.

Respectfully submitted,

William P. Burke, Jr.

11

